March 31, 2009

KATHLEEN AINSWORTH
VICE PRESIDENT, RETAIL OPERATIONS

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT: Management Advisory – High-Risk Contract Postal Units
         (Report Number FF-MA-09-003)

This report presents the results of our review of high-risk contract postal units (CPU)
(Project Number 08BD009FF006). The U.S. Postal Service Office of Inspector General
(OIG) performed this self-initiated review to test selected transactions, address financial
risk, and provide feedback to management to improve financial operations nationwide.
See Appendix A for additional information about this audit.

Conclusion

Host Post Offices, which are the post offices responsible for overseeing CPUs, did not
provide sufficient oversight of the CPUs we reviewed, including collecting debts and
putting information into the financial system. Specifically:

    •    Host Post Office personnel did not always enter CPU financial information into
         the financial system in a timely manner. Our audit disclosed that employes at
         seven CPUs entered financial information from 6 to 13 days late.1 In conducting
         further analysis, we determined that, as of September 30, 2008, Host Post
         Offices took 5 days or longer to enter financial information at 114 of 2,901 CPU
         sites nationwide.

    •    Host Post Offices did not collect $76,643 in outstanding stamp and cash
         shortages from eight CPUs we reviewed. As of September 30, 2008, there was
         $162,993 in outstanding cash and stamp shortages for all CPUs nationwide.2

    •    Host Post Offices improperly allowed CPUs to issue $14,198 in unauthorized and
         unsupported disbursements. This amount included $2,434 in Express Mail®



1
  Handbook F-101, Field Accounting Procedures, July 7, 2008, Section 5-7.2 parts a and e, state that the daily
responsibilities of the Host Post Office postmaster or designated employee include ensuring the receipt of a daily
Postal Service (PS) Form 1412, Daily Financial Report, and entering the CPU’s PS Form 1412.
2
  Handbook F-101, Section 13-7.2.2, states that CPU shortages should be paid back by personal funds.
High-Risk Contract Postal Units                                                                       FF-MA-09-003



         refunds3 and other financial expenses and $11,764 for disbursements without
         supporting documents.4

    •    Personnel at Host Post Offices responsible for two CPUs were unresponsive to
         our requests for documentation for disbursements totaling $11,042. We consider
         these disbursements unsupported questioned costs.

During discussions with personnel at Host Post Offices, employees attributed these
issues to employee turnover, inadequate training, and other higher priority duties. As a
result, the Postal Service has not collected $76,643 in funds owed by CPUs for stamp
and cash shortages, and $25,240 in unauthorized and unsupported expenses.

We judgmentally selected the CPUs we reviewed based on risk factors using the OIG
Financial Risk Model and, as such, we are concerned that the issues identified at these
CPUs could be occurring at others throughout the country. Specifically, we noted that,
as of December 31, 2008, there were over $200,000 in uncollected stamp credit
shortages at CPUs nationwide. In addition, 14 units closed between August 2003 and
May 2008 never cleared over $136,000 in stamp stock accountability. Consequently,
we believe the Postal Service can improve its oversight of CPUs in order to mitigate
these expenses and reduce potential impropriety.

We recommend the Vice President, Retail Operations:

    1. Develop an action plan to recover outstanding cash and stamp stock shortages.

    2. Review the two contract postal units where no response was given.

We recommend the Vice President, Retail Operations, in coordination with the Vice
President, Controller:

    3. Reinforce procedures for review and input contract postal unit financial
       information.

Management’s Comments

Management agreed with the recommendations and monetary impact, and stated they
would develop an action plan to provide instructions regarding the correct procedure for
recovering cash and stamp shortages by June 30, 2009. Management also stated they
would ask District Retail Managers to conduct financial and operational audits at both
locations that did not provide documentation during our audit and forward the results to
the Headquarters CPU office by April 17, 2009. Further, they plan to forward the

3
  Publication 116, Contract Postal Unit Operations Guide, August 2002, Section 3-2.2, page 42, states CPUs do not
process refunds for Express Mail failures.
4
  Publication 116, Section 5-7.1.d, states the Host Post Office is responsible for reviewing the PS Form 1412 daily
and ensuring all financial entries match the amounts from the supporting documentation.




                                                         2
High-Risk Contract Postal Units                                                                     FF-MA-09-003



procedure for reviewing and inputting CPU financial information to the Vice Presidents,
Area Operations, by June 30, 2009. See Appendix B for management’s comments in
their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report. Management’s corrective actions should resolve the issues identified in the
report.

We will report $101,883 of monetary impact, including $76,643 of recoverable
questioned costs and $25,240 of unrecoverable questioned costs,5 in our Semiannual
Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John Wiethop, Director, Field
Financial - Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    William P. Galligan
    Vincent H. DeVito, Jr.
    Stephen J. Nickerson
    Steven R. Phelps
    Katherine S. Banks




5
  Recoverable and unrecoverable questioned costs are unnecessary, unreasonable, or an alleged violation of laws or
regulations.




                                                        3
High-Risk Contract Postal Units                                                FF-MA-09-003



                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

CPUs are stations, branches, and community post offices operated under contract by
individuals who are not Postal Service employees. Contracts to operate CPUs provide
that the contractor will transact specified postal business. During our quarterly analyses
of the Financial Risk Model, we identified unusual expenses and other high-risk financial
activity occurring at CPUs throughout the country. The transactions indicate potential
financial mismanagement and may involve funds owed to the Postal Service. We
designed this limited scope review to evaluate these risk factors at selected CPUs.

As part of its responsibilities, a Host Post Office will coordinate with the CPU to ensure
receipt of a daily PS Form 1412 with supporting documentation, review the contractor’s
surety bond limitation, and conduct stamp credit counts as required.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of this review was to determine if funds were owed the Postal Service by
selected high risk CPUs. Our scope included transactions generated from June 1,
2007, through June 30, 2008.

To accomplish the objective, we issued letters to Host Post Office personnel requesting
information and documentation to support the high risk transactions we identified. We
traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying the computer records to
source documents. We used Postal Service instructions, manuals, policies, and
procedures as criteria to evaluate internal controls and data reliability. We interviewed
appropriate supervisors and employees as needed, and observed operations at
selected CPUs.

We conducted this review from July 2008 through March 2009 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our observations and conclusions with management officials on February 26,
2009, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

As part of its annual financial statement support work, the OIG completed installation
audits of 16 CPUs in FY 2006 and summarized the results in a capping report titled
Fiscal Year 2006 Financial Installation Audit – Contract Postal Units. Generally, these
audits disclosed internal control and compliance issues related to cash and stamp
accountability, security of the money order imprinter, and the Bait Money Order
Program.




                                             4
High-Risk Contract Postal Units              FF-MA-09-003




                                  Redacted




                                     5
High-Risk Contract Postal Units              FF-MA-09-003




                                  Redacted




                                     6
High-Risk Contract Postal Units              FF-MA-09-003




                                  Redacted




                                     7
High-Risk Contract Postal Units       FF-MA-09-003



APPENDIX B: MANAGEMENT’S COMMENTS




                                  8
High-Risk Contract Postal Units       FF-MA-09-003




                                  9
